<html>
<title> - S. Hrg. 108-871 NOMINATION OF PAMELA HUGHES PATENAUDE</title>
<body><pre>[Senate Hearing 108-871]
[From the U.S. Government Printing Office]



 
                                                        S. Hrg. 108-871


                 NOMINATION OF PAMELA HUGHES PATENAUDE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

      the nomination of pamela hughes patenaude, of new hampshire,
      to be assistant secretary of community planning development,
            u.s. department of housing and urban development

                               __________

                            OCTOBER 5, 2004

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html





                 U.S. GOVERNMENT PRINTING OFFICE

24-199                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

ROBERT F. BENNETT, Utah              PAUL S. SARBANES, Maryland
WAYNE ALLARD, Colorado               CHRISTOPHER J. DODD, Connecticut
MICHAEL B. ENZI, Wyoming             TIM JOHNSON, South Dakota
CHUCK HAGEL, Nebraska                JACK REED, Rhode Island
RICK SANTORUM, Pennsylvania          CHARLES E. SCHUMER, New York
JIM BUNNING, Kentucky                EVAN BAYH, Indiana
MIKE CRAPO, Idaho                    ZELL MILLER, Georgia
JOHN E. SUNUNU, New Hampshire        THOMAS R. CARPER, Delaware
ELIZABETH DOLE, North Carolina       DEBBIE STABENOW, Michigan
LINCOLN D. CHAFEE, Rhode Island      JON S. CORZINE, New Jersey

             Kathleen L. Casey, Staff Director and Counsel

     Steven B. Harris, Democratic Staff Director and Chief Counsel

              Mark A. Calabria, Senior Professional Staff

             Jonathan Miller, Democratic Professional Staff

               Jennifer Fogel-Bublick, Democratic Counsel

           Sarah L. Garrett, Democratic Legislative Assistant

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        TUESDAY, OCTOBER 5, 2004

                                                                   Page

Opening statement of Senator Allard..............................     1

Opening statements, comments, or prepared statements of:
    Senator Sarbanes.............................................     2
    Senator Sununu...............................................     3
    Senator Dole.................................................     4
    Senator Carper...............................................     5

                               WITNESSES

Jeb Bradley, a U.S. Representative in Congress from the State of 
  New Hampshire..................................................     5

                                NOMINEES

Pamela Hughes Patenaude, of New Hampshire, to be Assistant 
  Secretary of Community Planning and Development, U.S. 
  Department of Housing and Urban Development....................     6
    Biographical sketch of nominee...............................    13

                                 (iii)


                             NOMINATION OF

               PAMELA HUGHES PATENAUDE, OF NEW HAMPSHIRE,

                 TO BE ASSISTANT SECRETARY OF COMMUNITY

                     PLANNING AND DEVELOPMENT, U.S.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                              ----------                              


                        TUESDAY, OCTOBER 5, 2004

                                       U.S. Senate,
           Committee on Banking, Housing and Urban Affairs,
                                                    Washington, DC.

    The Committee met at 2:32 p.m., in room SD-538, Dirksen 
Senate Office Building, Senator Wayne Allard, presiding.

           OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. [Presiding]. The Banking Committee will 
come to order.
    First, I just want to review briefly how we have laid out 
the agenda for this afternoon. We will have the Chairman's 
statement; then we will have opening statements from Senator 
Sununu and Senator Dole; and then I will give Congressman 
Bradley an opportunity to make a few introductory remarks. Then 
we will swear in the witness, have a statement from the 
witness, and then questions from the Committee; and if Members 
come in with statements that they would like to make during the 
introductory part of it, before we have a statement from Ms. 
Patenaude--is that the way we pronounce your name?
    Ms. Patenaude. Correct.
    Senator Allard. Then, at the time that we are ready to take 
your testimony, Ms. Patenaude, we will have you take an oath 
prior to your statement.
    I will go ahead and make an opening statement.
    I would like to welcome you, Pam, to the Committee on 
Banking, Housing and Urban Affairs, and I appreciate you 
appearing before the Committee today.
    You are nominated to be the Assistant Secretary of 
Community Planning and Development at the Department of Housing 
and Urban Development, and this is a significant responsibility 
as CPD oversees many of HUD's most popular programs, including 
the Community Development Block Grants, commonly referred to as 
CDBG; HOME; American Dream Downpayment; Housing Opportunities 
for Persons with AIDS; and YouthBuild, as well as Homeless 
Assistance.
    These programs are generally well-run, as they are not 
currently on GAO's high-risk list, unlike most other HUD 
programs. That does not mean, however, that we cannot make 
changes to improve the programs.
    As Assistant Secretary, I am hopeful that Ms. Patenaude 
will work closely with the Congress to make suggestions as to 
how we can improve both the effectiveness and efficiency of the 
CPD programs.
    I would like to note one particular concern I have with the 
CDBG program, and that is the increasing number of set-asides 
and earmarks in the program. Last year's omnibus appropriations 
bill contained nearly 1,000 community development earmarks. 
CDBG was designed to be a formula distribution program, and 
earmarks simply reduce the amount of money that is available to 
jurisdictions under the formula.
    Even more distressing, by circumventing the normal process, 
projects that do not qualify even under CDBG's extremely broad 
guidelines are able to receive money. I recognize that this is 
the doing of Congress, not the Department, but I am hopeful 
that you, Ms. Patenaude, will join me in calling for an end to 
community development earmarks. I support the formula 
distribution, and I believe Congress should stick to the 
formula.
    As I have indicated in many previous hearings, I believe 
HUD must focus on its core mission to provide decent, safe, 
sanitary, and affordable housing. Good leadership involves a 
clear vision. Key HUD staff must have a clear set of 
performance goals in mind as well as ways in which the 
Department and Congress can measure progress in achieving those 
goals.
    Additionally, it is critical to consider the long-term 
sustainability of any program at HUD. The Government 
Performance and Results Act, or simply the Results Act, is a 
powerful tool toward that end. I would encourage our nominee to 
become familiar with HUD's Strategic Plan, Annual Performance 
Plans, Annual Accountability Reports, and financial statements. 
If properly utilized, they can help you achieve success in 
meeting the Department's mission.
    Again, thank you for your willingness to serve at HUD and 
to appear before the Committee. I look forward to working with 
you to provide decent, safe, affordable housing for American 
families.
    I now call on the Ranking Member for an opening statement.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Mr. Chairman, thank you very much.
    I want to add my words of welcome to Ms. Patenaude for 
appearing before us today. You have had a long record of 
service. In particular, I know of your ongoing work at HUD, 
which started more than 20 years ago as an intern. I am trying 
to recall whether we have had a HUD intern come before us to be 
an assistant secretary. We need to check that out.
    You have served in a number of capacities at the 
Department, in a number of different offices, expanding your 
responsibilities each time. I think this has given you a 
breadth of experience at the Department which will surely be of 
help in carrying out responsibilities as the Assistant 
Secretary for Community Planning and Development.
    The programs administered by that assistant secretary I 
think are extremely important--HOME, CDBG--and they involve, of 
course, close partnerships with State and local governments, 
between the Federal Government and the State governments or the 
local government, and also the private and nonprofit sectors. 
In that regard, you have served, I think, if I recall your 
resume correctly, at both the local level and the State 
government in dealing with assisted housing and economic 
development, and you have also worked on housing in the private 
sector.
    This experience I would hope would help you to make a more 
effective administrator of these critical programs, about which 
I will ask a few questions after we hear your opening 
statement.
    Mr. Chairman, thank you very much.
    Senator Allard. Thank you very much, Senator Sarbanes.
    Now we will go to Senator Sununu for an introduction and 
then Senator Dole.
    Senator Sununu.

              STATEMENT OF SENATOR JOHN E. SUNUNU

    Senator Sununu. Thank you very much, Mr. Chairman.
    It is a pleasure to be here and a pleasure to welcome 
Congressman Bradley as well, who ably took my place in the 
House. It is nice to have him on this side of the Capitol.
    Senator Sarbanes. Big shoes to fill, Congressman Bradley, 
aren't they?
    Senator Sununu. It is a pleasure to welcome him and it is 
an honor to join with Senator Judd Gregg in offering our 
delegation's very strong support for the nomination of Pamela 
Patenaude to be Assistant Secretary for Community Planning and 
Development.
    I want to welcome all of her family members--I know there 
are a number of them here--but a special note to Bob and 
Estella, her parents, and of course, her husband Chuck. It is 
great to see them here before the Committee.
    Pam brings great experience to this job and this 
opportunity, as you mentioned, Mr. Chairman--over 22 years of 
experience in housing, but also in areas of finance and 
community and economic development, which are going to be 
central to her success in this new job.
    That experience goes back to our home State of New 
Hampshire, where we were neighbors in Bedford, and Pamela 
originally served as one of the planning board members, getting 
her feet wet, as it were, in interests of community and 
economic development. She has shown her commitment time and 
time again to those issues as a volunteer in many areas, but 
also as an outstanding professional.
    She has served in a formal capacity now for nearly 8 years 
at HUD and understands the critical role that HUD plays and its 
impact on families and the impact it can have on communities 
that are working to improve the economic picture for those 
families.
    She has worked in New Hampshire as the administrator of our 
Section 8 housing program, so has that firsthand experience 
that will really make a difference in overseeing some of the 
programs that were mentioned earlier by the members.
    Most recently, she served as Assistant Deputy Secretary for 
Field Policy and Management, again in a role where oversight is 
important, management criteria are very important, and in a 
role that has brought her in day-to-day contact with a lot of 
those working for HUD in the field to make the programs 
mentioned, whether CDBG or HOME or other initiatives, really 
work on the ground.
    Time and again, Pamela has shown great commitment to 
increasing homeownership, to supporting community development, 
and to increasing access to affordable housing--all issues that 
have been spoken of at great length in the many hearings that 
the Banking Committee has had on these issues.
    We all know how tough it is to find people who are 
qualified, who bring great professional and personal skills to 
their work, when they could earn a lot more money in the 
private sector. We want those qualified individuals to be 
willing to serve in public service, to be willing to serve in 
Government, because of the great value they can make for so 
many people, and we are very fortunate to have someone as 
qualified as Pamela Patenaude to step forward and show not just 
an interest but a real dedication to her career in public 
service.
    It is an honor and a pleasure to welcome her and to offer 
great support along with Senator Judd Gregg for her nomination.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you.
    Senator Dole, would you like to make an introduction?

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you, Mr. Chairman.
    Certainly it is an honor and a privilege to join my 
colleague from New Hampshire, Senator Sununu, in welcoming to 
the Committee a very dear friend, Pamela Hughes Patenaude. We 
have known one another for many years now, and it is so good to 
see her husband Chuck, her three beautiful daughters--Caitlin, 
Meghan, and Jennifer--and of course, my friends Bob and Estella 
Hughes--it is wonderful to see you today--and Pam's brother 
Kevin; and I think there are some additional family members in 
the audience. So welcome to all of you. It is a real joy to be 
with you today.
    And certainly I believe President Bush and Secretary 
Jackson have selected an outstanding individual to fill this 
critical position. Pam holds a master's degree in community 
economic development. She has worked, as we have heard, in the 
field for 22 years at the Federal, the State, and the local 
levels of government in this particular field.
    For the past 3 years, Pam has served, as you have heard, as 
Assistant Deputy Secretary for Field Policy and Management at 
HUD. This position oversees the 80 field offices throughout the 
country that deliver HUD programs to our citizens, and under 
Pam's leadership, HUD field offices have a new focus on 
customer service, professionalism, and efficiency.
    My office knows firsthand that HUD's North Carolina staff 
is responsive to needs of our communities and constituents, and 
it has been my pleasure to work with Pam on some of these 
issues. She is also dedicated to building stronger communities 
through philanthropic and civic organizations.
    I am particularly proud of Pam's service to the Greater 
Manchester Chapter of the American Red Cross, an organization 
that is very near and dear to my heart.
    Pamela Hughes Patenaude is a woman with outstanding 
credentials and experience in housing and community 
development. This intelligent and well-qualified woman is from 
a family that represents New Hampshire's civic generosity and 
integrity, and I 
enthusiastically endorse the nomination, Mr. Chairman, and look 
forward to speedy consideration by the Committee.
    Thank you.
    Senator Allard. Thank you.
    Before I call on Representative Bradley, I would like to 
see if Senator Carper has an opening statement.

              COMMENTS OF SENATOR THOMAS R. CARPER

    Senator Carper. Thank you. I do not have a statement. I 
just want to welcome the nominee and her family, and wish her 
the best of luck in the future.
    Senator Allard. Thank you.
    Congressman Bradley.

                    STATEMENT OF JEB BRADLEY

             A U.S. REPRESENTATIVE IN CONGRESS FROM

                   THE STATE OF NEW HAMPSHIRE

    Mr. Bradley. Thank you very much, Chairman Allard, and all 
the other Members of the Committee.
    It is really a pleasure for me to be here this afternoon 
and join with Senator Sununu and Senator Dole in supporting the 
nomination of Ms. Patenaude to this position.
    My office has also worked closely with her, and we have 
found her to be exceptional in pursuing her duties, and on 
behalf of all of us in the New Hampshire delegation, I do not 
think we can stress enough what a great opportunity this is, 
not only for the State of New Hampshire but also our entire 
country, in housing and urban development. So, I am pleased to 
be able to be here and support Ms. Patenaude.
    Thank you.
    Senator Allard. Thank you.
    Now we will go ahead and ask the witness to stand and raise 
your right hand.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Patenaude. I do.
    Senator Allard. Do you agree to appear and testify before 
any duly-constituted committee of the Senate?
    Ms. Patenaude. I do.
    Senator Allard. Thank you.
    We would be glad to hear from you now, and if there are any 
other members of your family that you would like to introduce--
it sounds like they are pretty familiar to the Committee 
already--you are certainly welcome to make that introduction at 
this time.

              STATEMENT OF PAMELA HUGHES PATENAUDE

          OF NEW HAMPSHIRE, TO BE ASSISTANT SECRETARY

             FOR COMMUNITY PLANNING AND DEVELOPMENT

        U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Patenaude. Thank you, Mr. Chairman, Ranking Member 
Sarbanes, and distinguished Members of the Committee. It is an 
honor and a privilege to appear before you today as President 
Bush's nominee for Assistant Secretary for the Office of 
Community Planning and Development at the Department of Housing 
and Urban Development. Thank you, Senator Sununu and Senator 
Dole, for your very kind words of introduction. I would also 
like to thank Congressman Bradley for his well wishes, too. I 
am delighted to introduce my wonderful family, whose love and 
support has helped make this day possible--my husband Chuck; 
our three beautiful daughters, Caitlin, Meghan, and Jennifer; 
my mom and dad, Bob and Estella Hughes; my brother Kevin; and 
my cousins Judy and Caroline Wenners. I also want to thank the 
many colleagues and friends who are here with me today.
    President Bush and Secretary Jackson have built a 
tremendously qualified team at HUD, and it has been an honor to 
serve with these talented individuals over the last 3 years. If 
confirmed, I will be fortunate to be following in the footsteps 
of Deputy Secretary Bernardi, whose leadership in CPD has been 
outstanding. I hope to build on his achievements and look 
forward to working with the many fine professionals in the 
Office of Community Planning and Development.
    As the Assistant Deputy Secretary for Field Policy and 
Management, I provide the leadership and oversight of the 
Department's 80 field offices. Those field office are making 
considerable progress in achieving two very important goals--
increasing minority homeownership and ending chronic 
homelessness.
    Under the President's homeownership agenda and the 
leadership of this Committee, for the first time in our 
Nation's history, more than 50 percent of minority families are 
proud homeowners. Also, we have reached a record level of 
homeownership overall. Today, nearly 70 percent of American 
families own their own home. Progress is being made, but the 
minority homeownership gap remains, and it is far too wide.
    President Bush has also challenged the Nation to end 
chronic homelessness by the year 2012. Last year, HUD 
distributed a record $1.3 billion in competitive homeless 
assistance grants. These grants for housing and services are 
helping 700,000 individuals begin their journey to a place they 
can call home.
    I share the President's commitment to homeownership as the 
key to stronger, healthier communities and financial 
independence. I am also here today to assure the Committee of 
my ability to fulfill the duties as Assistant Secretary for the 
Office of Community Planning and Development.
    As you have heard, I bring 22 years of experience in 
housing and economic development. I have an understanding of 
the HUD organizational structure and programs, and a genuine 
appreciation and respect for the policymaking and oversight of 
the Congress.
    As you heard from Chairman Allard, my deep commitment to 
the mission of HUD was ignited during my college internship 
more than 20 years ago. I have the enthusiasm, leadership 
qualities, and track record to make an immediate and positive 
contribution as the Assistant Secretary for the Office of 
Community Planning and Development.
    I am sincerely grateful to President Bush and Secretary 
Jackson for the trust they have placed in me. If confirmed, I 
will honor this trust through commitment, tenacity, and a 
steadfast sense of duty. I pledge to work in concert with this 
Committee in promoting accountability in meeting the needs of 
our Nation. My heartfelt thanks to all of you for affording me 
this opportunity today.
    Mr. Chairman, I would be happy to answer any questions you 
may have.
    Senator Allard. Thank you for your statement.
    I am going to start off with the American Dream Downpayment 
Act.
    As you are well aware, last year, it was signed into law 
and implemented. So, I am just interested in a status report--
where are we in implementing the programs related to that 
American Dream Downpayment Act? Right now it is a top priority 
of the Administration. Do you believe that that should continue 
as a top priority? If you could talk about that a little bit, I 
would appreciate it.
    Ms. Patenaude. Thank you, Mr. Chairman.
    As you know because you were there for the bill-signing, 
President Bush signed the American Dream Downpayment Act into 
law in December of 2003. I am very happy to report today that 
the fine career staff at HUD worked very diligently to get the 
rule published, and in late May/early June, the funds were 
distributed to participating jurisdictions, and today more than 
1,600 families have benefitted from the American Dream 
Downpayment Act and are proud homeowners.
    As to whether or not it should continue to be a priority, 
yes, I feel very strongly that homeownership should be a top 
priority.
    Senator Allard. Okay. The other issue that I wanted to 
bring up is the CDBG formula.
    As you are very much aware, two programs that have the 
largest formula distribution programs at HUD are the CDBG 
dollars, as well as HOME. I personally support the formula-
based programs because they do provide the local flexibility 
and some predictability.
    However, some questions have been raised regarding the 
formula factors. As a matter of fact, HUD is currently studying 
alternative formula factors.
    My question is when can we expect the report, and are you 
willing to work with the Congress to carefully evaluate the 
factors, including their fairness to different regions of the 
country?
    Ms. Patenaude. Mr. Chairman, I am aware of the study. I 
understand that the draft study is under consideration by my 
colleague, the newly appointed Assistant Secretary, Donna Shea. 
I am not familiar with the contents of the study at this time, 
but I can assure you that I will work very closely with you and 
this Committee in evaluating any suggestions or improvements 
that can be made to the formula allocation.
    Senator Allard. Each question I have gets a little tougher. 
The third one that I do want to give you an opportunity to 
answer is on those programs that relate to the homeless--and 
you used some of the homeless figures in your comments here to 
the Committee. But they have a number of programs that have 
been designed for the homeless, and there is some concern that 
has been expressed about some of them being duplicative, and as 
a result of that, several different members have proposed 
consolidating HUD's homeless programs.
    Members of this Committee and, I think, the Administration 
are searching to see if there is a compromise on how some of 
the programs may be consolidated and structured to better serve 
the homeless. My question is would you give us some comments on 
that, and are you willing to work with us to find a way to 
better serve the homeless?
    Ms. Patenaude. I am familiar with the efforts underway 
between HUD and Members of the Committee to consolidate the 
three competitive homeless programs, and I very much favor that 
to help our communities streamline these applications and to 
reduce the burdens.
    Senator Allard. The Office of Management and Budget 
recently rated the CDBG program as ineffective and that the 
program suffered from unclear purpose, loose targeting 
requirements, and lack of results. Could you please elaborate 
on OMB's concerns?
    Ms. Patenaude. Mr. Chairman, I have not seen it, although I 
aware of this rating, ``moderately effective,'' that the CDBG 
program was rated by OMB using the PART assessment tool.
    I am not sure that there was enough information--perhaps 
there was a lack of data--and I understand that the people in 
CPD are working closely with OMB at this time.
    Senator Allard. Yes, I think it has a lot of strong support 
here in the Congress, and I think that we can hopefully get 
some cooperation working with you on how we can best address 
any problems that might be brought by the OMB report. I think 
it is highly unlikely that there will be any real drastic 
changes, but I do think it is something that we need to look 
at. We need to look at the OMB report. And in our budget 
process now, we are beginning to have more feedback because of 
the results program that we have in place about how various 
agencies are able to set goals and meet the objectives of those 
goals.
    So, I will look forward to working with you, and I think 
the Chairman will look forward to working with you, too, on 
that.
    My time has expired, and I will call on Senator Sarbanes 
for his questions.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Ms. Patenaude, in your opening statement, you talked about 
the goal of expanding homeownership, which I think we all 
share, and also the goal of ending homelessness, obviously a 
critical objective.
    I do not think most homeless people are automatically 
positioned to move from homelessness to homeownership. It seems 
to me we need an adequate rental housing program to assure that 
low-income people have stable, affordable, and safe housing 
options.
    What is your view on the importance of affordable rental 
housing, and how does rental housing fit in with the mission of 
the Office of Community Planning and Development?
    Ms. Patenaude. Thank you, Senator, for the question.
    As you know, the HOME Program can be and is used very often 
for the production of affordable housing, as well as the 
Community Development Block Grant Program.
    I certainly agree that there is a need for affordable 
housing.
    In regard to the homeless question, we are working very 
closely with the newly revived Interagency Homeless Council, 
working with States and cities to help them create their own 
10-year plans to deal with homelessness in their communities.
    Senator Sarbanes. Do you see rental housing as an important 
vehicle by which to get from homelessness eventually, perhaps, 
to homeownership?
    Ms. Patenaude. I think it is one option.
    Senator Sarbanes. What are the others?
    Ms. Patenaude. To move to permanent housing.
    Senator Sarbanes. Permanent homeownership, or rental? I 
guess the question I am asking is how realistic is it to think 
we can move people from homelessness to homeownership without 
transitioning them through other stages which would involve, 
presumably, rental housing.
    Ms. Patenaude. Well, certainly our goal is to move them out 
of shelters into suitable housing. And with the help of the 
Interagency Council, we are working very, very closely with 
other Cabinet departments to provide the services that these 
individuals need.
    Senator Sarbanes. I would observe that I think both the 
Homeless Assistance funds and, as you note, the HOME funds can 
be used on rental housing, and I think we need to keep that in 
mind as we try to accomplish this transition, as we try to move 
people out of homelessness into permanent housing, but which in 
my view would generally have to be rental housing, at least in 
the initial stages. Otherwise, I think it is very difficult to 
accomplish that.
    One of the challenges that HUD faces in the coming years is 
an aging workforce. Many of the experts that HUD relies on will 
soon be eligible for retirement. Now, you are one of those 
experts, but you are not near eligible for retirement yet. But 
what are your comments about this problem? What can HUD do to 
ensure an adequate and skilled workforce in the future?
    Ms. Patenaude. Thank you, Senator Sarbanes.
    I believe that Secretary Jackson is very well aware of the 
succession issue at HUD and is working very closely with the 
Assistant Secretaries in the Office of Community Planning and 
Development. They already have a leadership program underway. 
We have aggressively recruited Presidential Management Interns, 
which I believe are now referred to as Presidential Management 
Fellows.
    The Career Intern Program was reinstated at HUD, and we 
just graduated our first class of over 150 interns who went 
through a 2-year training program, and many of these 
individuals already had experience in the private sector and 
the nonprofit sector.
    We also had a very active college internship program this 
summer, and I feel that that is a wonderful way to recruit 
young men and women into public service.
    Senator Sarbanes. You did this first training program for 
the field offices--the National Management Training Symposium 
for your 700 managers and executives. What did you draw from 
that in terms of the future for HUD, in terms of the people who 
are down the line working for HUD, and what do you think the 
prospects are?
    Ms. Patenaude. The first training that was conducted in 
December 2002 was to launch our new Strategic Plan, as required 
under the GPRA or the Results Act. I believe it was very, very 
effective. It was an opportunity for Secretary Martinez to lay 
out his agenda.
    The followup training that was conducted in May of this 
year was an opportunity to look back and see if in fact we were 
effective and are effective in promoting the goals of our 
Strategic Plan. It was also a tremendous communication 
opportunity for the managers and executives in the field to 
work with the managers and executives in headquarters.
    Senator Sarbanes. What was the reading you took of the 
quality of people you have out in the field?
    Ms. Patenaude. I am very, very proud. Many of them are 
here, sitting behind me. I think we have some of the best and 
the brightest at HUD and very, very dedicated professionals in 
the field.
    Senator Sarbanes. I noticed in looking at the questionnaire 
you submitted to the Committee, where they ask about services 
rendered to all political parties or election committees during 
the last 10 years, you have been quite active. Actually, I 
think that is a good thing. I like to see people participate in 
the political process. But the question I want to put to you is 
whether you are able to separate your political involvements 
from the substance of the work you have to do at the 
Department, because obviously, you will be supervising and 
working with people who may hold different political views, may 
not have any political views at all, may not really be into the 
political process.
    So the question is on the one hand, are you able to 
undertake this political activism but not bring it over into 
the work environment where, of course, you need to act in an 
entirely different context? Has that at any point been a 
problem for you and would you foresee it being a problem?
    Ms. Patenaude. Senator, at a very young age, my parents 
encouraged me to get involved in the democracy of our country, 
and I have enjoyed being involved in political campaigns. I 
have never let it interfere with my professional activity at 
work, and I feel that I have been able to manage my 
professional life, my personal life as a mother, and my limited 
political activities. Certainly since I arrived in Washington 
in August 2001, my time has been very limited with outside 
activities. And I can assure you I will never let my political 
philosophies interfere with being fair with the taxpayers' 
money.
    Senator Allard. Senator Sarbanes, your time has expired. I 
do not know how many more questions you have.
    Senator Sarbanes. I have one more, if I could, Mr. 
Chairman.
    Senator Allard. Is that okay with you, Senator Sununu?
    Senator Sununu. Yes. Go ahead.
    Senator Allard. Senator Sarbanes.
    Senator Sarbanes. I appreciate that answer. I think it is 
very important, and I think we need to be clear that we welcome 
the political activity, but it cannot be brought over into the 
substantive area of professionalism with respect to the work of 
the Department.
    In the past, Members of this Committee, including myself, 
have on occasion faced unnecessary delays in getting critical 
information from HUD when we have made requests for data on 
program and budget information. Do we have your commitment that 
you will provide information to Members of the Committee 
regarding program operations, management, and other information 
which is relevant to the Committee's oversight activities 
without undue delay?
    Ms. Patenaude. Absolutely. I will commit to this Committee 
to be responsive in a timely fashion and work closely with our 
Office of Congressional Relations in responding to requests 
from this Committee.
    Senator Sarbanes. Good.
    Thank you very much, Mr. Chairman.
    Senator Allard. Thank you.
    Senator Sarbanes. Senator Sununu, thank you very much for 
letting me continue.
    Senator Allard. Senator Sununu.
    Senator Sununu. My pleasure.
    I do want to begin by underscoring the point made by 
Senator Sarbanes about the distinction between two important 
issues that we deal with, one, homelessness, and two, 
homeownership.
    With regard to homelessness, as the nominee, Pamela 
Patenaude, has indicated, there are a number of different 
options and programs that are out there that can address the 
homelessness issue--rental-based programs, Section 8 programs, 
voucher-based programs, group homes--but I think it is 
important to recognize that with all of these options, those 
that are most successful tend to be community-based, and that 
is why I think it is important, as Chairman Allard has 
indicated, that we look at ways where appropriate to 
consolidate this funding and get it to the local level so that 
different types of approaches to deal with homelessness can be 
developed.
    With respect to homeownership, I think our goal, whether 
you are in subsidized housing or not, is to move from the 
rental situation to an equity situation where you can build 
financial equity and the security that comes from 
homeownership. And I certainly hope and feel confident that our 
nominee will do that.
    I want to ask one question, or ask you to describe one 
particular thing for us, and that is to talk a little bit about 
your experience in the field and in your current position. 
Could you discuss for us what you have learned from that and 
any observations or skills that you hope to bring from the 
field management role to Community Planning and Development?
    Ms. Patenaude. Thank you, Senator Sununu.
    I have had a wonderful opportunity to work with the field 
for over 3 years now, and in my previous time at HUD, I also 
worked with the field. When Secretary Martinez and Secretary 
Jackson arrived at HUD, they found that there was little 
support for the field, if you will, from a decisionmaking 
standpoint. They made the decision that it was very, very 
important for the local HUD offices to be able to make 
decisions based on the needs of the community.
    I am happy to report that that is happening today, and I 
hope that the relationship that I built with the Office of 
Field Policy and Management will help me to establish a strong 
bond with the Community Planning and Development directors in 
the field.
    Senator Sununu. Thank you very much.
    I do not want to belabor the Committee. I think my strong 
sentiments toward the nominee are well-known.
    I want to wish Pamela great success in the job.
    I know that Mrs. Dole had a meeting in the Majority 
Leader's office, but I do want to join with her in encouraging 
the fastest possible consideration when we have a well-
qualified candidate and a relatively noncontroversial post. I 
hope we can move this nomination forward, and I am willing to 
do anything necessary to help the Committee complete that work.
    Thank you very much. Thank you, Pamela and the Hughes 
family, and thank you, Mr. Chairman.
    Senator Allard. Thank you, Senator Sununu.
    Senator Sarbanes do you have any more questions?
    Senator Sarbanes. No.
    Senator Allard. I have just one that I would like to follow 
up with, and it is on results and performance-based 
measurements. You will be dealing a lot with local governments 
and private contractors and so on. Have you given some thought 
to how you can put together a management program where you can 
get some measure of performance from these individuals who are 
managing the grants so that you can pass your results and 
successes on to the Congress--or failures on to the Congress--
through the reporting process that is now currently in place?
    Ms. Patenaude. As you know, our Strategic Plan--every year, 
we have an Annual Performance Plan, and from that document, we 
have an internal management tool, the Management Plan. The 
Management Plan is used to track our achievements at HUD. And 
with regard to external partners, I will commit to work very, 
very hard to make sure that there is accountability.
    Senator Allard. I do think it is important that you do work 
with them, and I guess it can be carried to extreme, but on the 
other hand, I think we do have a responsibility on this side to 
make sure that programs function the way they are set up to 
function and that the taxpayer's dollar is not wasted and that 
we have a way of holding you accountable, because taxpayers and 
the American public will hold us accountable, too.
    So, having said that, if there are no other questions from 
the Committee, I want to thank you, Pam, for taking the time to 
be before this Committee, and thank you for being willing to 
serve in this position. I think you bring a wealth of 
experience and look forward to working with you when--and I 
expect that you will be confirmed by the full Senate.
    So again thank you, and I thank the Members of the 
Committee for their questions.
    With that, we will adjourn the hearing.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.]
    [The biographical sketch of the nominee supplied for the 
record follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
